WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5754
v Department of Education

Karpupaiyan
(Petitioner)

(Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents):

□ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date:.

^QAUiifd

September 23, 2020

(Type or print) Name Antonelia Karlin
□ Mr.
0 Ms.
Firm. New York
Address

□ Miss

City Law Department

100 Church Street

City & State
Phone

□ Mrs.

New York, NY

212-356-0820

Zip
Email

10007

akarlin@law.nyc. gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUI
CC: Palani Karpupaiyan, pro se petitioner

recbved
OCT ' - M®

